<html>
<title> - [H.A.S.C. No. 111-34]FUTURE ROLES AND MISSIONS OF THE UNITED STATES NAVY AND MARINE CORPS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-34]

 
  FUTURE ROLES AND MISSIONS OF THE UNITED STATES NAVY AND MARINE CORPS

                               __________

                                HEARING

                               BEFORE THE

             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 26, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
  

                  U.S. GOVERNMENT PRINTING OFFICE
54-775                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                   GENE TAYLOR, Mississippi, Chairman
SOLOMON P. ORTIZ, Texas              W. TODD AKIN, Missouri
JAMES R. LANGEVIN, Rhode Island      ROB WITTMAN, Virginia
RICK LARSEN, Washington              ROSCOE G. BARTLETT, Maryland
BRAD ELLSWORTH, Indiana              J. RANDY FORBES, Virginia
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GLENN NYE, Virginia                  THOMAS J. ROONEY, Florida
CHELLIE PINGREE, Maine
ERIC J.J. MASSA, New York
                  Will Ebbs, Professional Staff Member
                 Heath Bope, Professional Staff Member
               Jenness Simler, Professional Staff Member
                  Elizabeth Drummond, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, March 26, 2009, Future Roles and Missions of the United 
  States Navy and Marine Corps...................................     1

Appendix:

Thursday, March 26, 2009.........................................    31
                              ----------                              

                        THURSDAY, MARCH 26, 2009
  FUTURE ROLES AND MISSIONS OF THE UNITED STATES NAVY AND MARINE CORPS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Seapower and Expeditionary Forces Subcommittee.........     2
Taylor, Hon. Gene, a Representative from Mississippi, Chairman, 
  Seapower and Expeditionary Forces Subcommittee.................     1

                               WITNESSES

Barnett, Dr. Thomas P.M., Senior Managing Director, Enterra 
  Solutions, LLC.................................................     8
Houley, Rear Adm. William P., USN (Ret.).........................     4
O'Rourke, Ronald, Specialist in Naval Affairs, Congressional 
  Research Service...............................................    12
Thompson, Dr. Loren B., Chief Operating Officer, Lexington 
  Institute......................................................    10

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    37
    Barnett, Dr. Thomas P.M......................................    50
    Houley, Rear Adm. William P..................................    39
    O'Rourke, Ronald.............................................    77
    Taylor, Hon. Gene............................................    35
    Thompson, Dr. Loren B........................................    65

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]

  FUTURE ROLES AND MISSIONS OF THE UNITED STATES NAVY AND MARINE CORPS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Seapower and Expeditionary Forces Subcommittee,
                          Washington, DC, Thursday, March 26, 2009.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2118, Rayburn House Office Building, Hon. Gene Taylor 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. GENE TAYLOR, A REPRESENTATIVE FROM 
   MISSISSIPPI, CHAIRMAN, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Taylor. The hearing will come to order. Today the 
subcommittee meets in open session to explore future naval 
capabilities and force structure.
    Today's hearing is unique for this subcommittee. We are 
typically addressing the budget directly or conducting 
oversight on troubled programs. Today, we have the opportunity 
to discuss alternative visions of roles and missions for the 
United States Navy and the United States Marine Corps with a 
very distinguished panel of witnesses.
    Today's witnesses have not been handpicked to present any 
particular position of force structure requirements. The 
subcommittee has been particularly careful not to guide or 
steer our witnesses' testimony.
    Our panel was selected by their expertise and strategic 
analysis along with widespread admiration for their previous 
published work. In fact, until I read their prepared testimony, 
prior to this hearing, I had no idea what any of them might 
say. That is exactly the type of hearing that the ranking 
member and I wanted to have.
    Sometimes the field will get too focused here in Congress 
on budget requests and specific acquisition programs and fail 
to stand back and look at the big picture, to verify the 
overall strategy of the Navy and our Nation's needs.
    Our Navy has evolved over the years to complement the 
national strategy. This was true long before we used terms like 
``national strategy.'' Our first Navy was a commerce protection 
force, not a global power. President Teddy Roosevelt and the 
Great White Fleet brought our Nation into preeminence on the 
world stage as a naval power, a power that was centered on 
battleships.
    The Second World War changed the view of seapower to a 
carrier battle group and the dominance of air power. Who knows 
what the next 30 years will bring? I hope that our witnesses 
will share their views on the future force and the challenges 
that that force may face.
    The fact of the matter is, however, that within a few 
weeks, the Department of Defense will send over a budget 
request with a detailed plan for the construction of naval 
vessels and aircraft. This subcommittee will need to analyze 
that request in a very short period of time and make 
recommendations to our full committee and into the full House 
for acceptance or modification.
    That is why a hearing such as today is so useful. Listening 
to varying opinions always helps the final decision process. We 
have an extremely distinguished panel with us today.
    Mr. O'Rourke is no stranger to the subcommittee. We have 
routinely relied on his counsel during our yearly budget 
deliberations. Dr. Thompson, from the Lexington Institute, is 
widely regarded as an expert in naval affairs and has published 
extensively on maritime subjects.
    Rear Admiral Houley is a retired submarine officer who has 
commanded at the ship, squadron, and group level with tours at 
the Pentagon crafting naval strategy. I recommend his recent 
article in the United States Navy Institute Proceedings 
Magazine for a detailed analysis of naval roles and missions.
    Dr. Barnett is a widely published author and speaker who 
has led a transformation in Pentagon thinking with his first 
book, ``The Pentagon's New Map--War and Peace in the 21st 
Century.''
    I would like to thank all of our witnesses for appearing 
with a special thanks to Dr. Barnett for coming from out of 
town. We look forward to their discussion today.
    Without objection, it is the chair's opinion that due to 
the broad topic today, and the probability that the witnesses 
would have slightly different viewpoints, the subcommittee will 
relax the normal rules for questioning and allow dialogue 
between members and follow-up questions without the loss of 
time.
    I would now like to recognize our friend from Missouri, the 
ranking member, Congressman Todd Akin.
    [The prepared statement of Mr. Taylor can be found in the 
Appendix on page 35.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
 RANKING MEMBER, SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman, and I must say that I 
have been looking forward to our hearing this morning with some 
considerable anticipation because of your reputations that 
proceed you. And as a new ranking member on this committee, I 
am in a sense the new guy. And so I have a lot of questions and 
that makes it even more interesting.
    And I do understand that without a clear understanding of 
the world in which the Navy will operate in the coming years 
and the missions the Navy will likely be called upon to 
perform, we cannot possibly put any procurement or research 
program into context.
    Therefore, it is useful to seek the Navy's opinion on these 
matters. I had the opportunity to discuss some of these ideas 
at length with the Chief of Naval Operations this week, 
actually about a 10-hour meeting with him in an airplane where 
he was cooped up and couldn't escape.
    I am confident that the Navy is actively attempting to 
adapt to changing threats, the diversity of threats and to meet 
the challenges of their latest maritime strategy. But any large 
institution has difficulty responding rapidly to changing 
threats and strategic objectives.
    Sadly, such was the case with the Navy in 1941. The service 
and the Nation had to come to grips with the power of the 
airplane as a naval weapon the hard way. I believe that a 
similar paradigm shift may be underway, and we should do our 
best not to be taken by surprise.
    This is why it is also important for the subcommittee to 
hear from independent observers, such as yourselves, to seek 
your assessment of the significant changes to the external 
environment in which our sea services operate.
    We also seek your guidance as to the tough choices the 
services will have to make going forward. I hope this hearing 
will be a way for us to explore the constraint and assumptions 
that should frame any reasonable discussion about future force 
structure alternatives as well as possible force size.
    I hope that you can offer suggestions about how we should 
evaluate recommendations that come to us via the fiscal year 
2010 budget, the naval operating concept and the quadrennial 
defense review. For example, does Navy remain more or less 
relevant over the next 25 years given the United States 
strategic objectives, anticipated global threats and balance of 
power?
    What is the role of our current weapons systems in the 
future? What is the role of emerging technology such as 
directed energy and unmanned vehicles in the future force 
structure? How important is the role of information in the 
future, and how should the Navy position itself to connect, 
analyze, disseminate and deny its adversaries access to 
information?
    Given the cost of shipbuilding, how does the Navy maintain 
a global presence, incise itself for peacetime operations? Is 
it through ships or should it be through other platforms?
    With these questions in mind, Mr. Chairman, I will 
conclude. I have slightly longer statement that I would ask be 
entered for the record. Thank you again for holding this 
hearing today.
    To our witnesses, I appreciate you being with us and truly 
look forward to our discussion. Thank you.
    Mr. Taylor. Without objection, the gentleman's full 
statement will be entered for the record.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 37.]
    Mr. Taylor. I am told that Dr. Barnett is tied up in 
traffic. So if we don't mind, we are going to begin with 
Admiral Houley.
    Admiral, normally in this committee, we ask our witnesses 
to speak for five minutes. Given the good fortune that we have 
to have all of our witnesses here today, we are going to 
deviate. So please, if you can, try to keep it under 10.

      STATEMENT OF REAR ADM. WILLIAM P. HOULEY, USN (RET.)

    Admiral Houley. I am very proud to be here this morning. 
And I am also very appreciative that you and your committee 
would take the time to have this kind of a conversation along 
the way, because even if we only have the slightest opportunity 
to influence the deliberations that are going on right now, I 
know that we are very, very appreciative.
    Everybody thinks their own point of view is absolutely the 
right one. I am certainly no exception to that, and I find as I 
get older, I become even more and more certain of my position, 
even though the total number of facts I have to support it 
seems to go down with my age.
    I am honored, Mr. Chairman, to be asked to join this 
discussion, and I am well aware that most of you in this room 
have been considering force structure issues for many, many 
years. I also know it is easy to criticize any end result.
    I certainly have done so over my years of service. Let me 
first frame my remarks as follows: I respect the fact that 
those in a position of active Navy leadership are better 
informed than myself. I hope that none of my comments are 
interpreted as a challenge to the Navy's budget request.
    I appreciate that every new year brings special 
circumstances, and obviously this year, in particular, is no 
exception. And the remarkable economic situation makes your 
decisions all the more important to our future.
    While I know that a discussion of background material is 
extraneous here, and I have no desire to insult the wisdom of 
this committee, I must apologize beforehand for repeating some 
obvious facts in this statement.
    The first is that the Navy's existing force level can be 
argued to be inadequate or barely adequate, but the oceans are 
vast. Our position of leadership in the free world is clear. 
And the number of ships we have cannot logically be argued to 
be excessive.
    Second, since ship lifetimes can only be extended so far, 
we cannot solve our problems by painting over rust. Third, the 
mix of our ships can only be changed very gradually, and any 
war or conflict will have to be faced with a come-as-you-are 
force. That remains true even if we were suddenly to find 
ourselves in complete agreement about the kind of Navy that we 
need for tomorrow.
    No matter what the arguments may be concerning how to 
prioritize future threats, we cannot delay augmentation of our 
current fleet numbers or allow continuing deterioration of 
those numbers through inaction. Ship construction and 
modernization is but one of many issues. This committee knows 
there is no magic out there, and I have none to offer. But some 
aspects of the Navy's challenges, as I see it, are quite clear.
    I have mentioned one: We have too few ships. Replacements 
are being built and commissioned at a slower rate than existing 
ships are being retired. Since nothing is cheap, what can be 
done?
    First, let's go back to those obvious facts that I 
mentioned. CVNs, that is nuclear powered aircraft carriers, are 
more than the backbone and heart of the Navy. They forestall 
the need for access that can be denied us in many parts of the 
world for many of the scenarios we will continue to face.
    They are not only the first asset a President considers 
when faced with a military challenge. They are one of the few 
unquestioned resources our Nation will require in the future. 
These ships are enormously expensive and take a long time to 
build, but they are the essence of force projection, the 
ultimate expeditionary force. And any math required for the 
Navy budget should begin with CVNs.
    I would spend my full time on this point, but it would be 
an insult to your intelligence. I have to say, I am very 
concerned about this topic. Carriers may be unassailable to 
budget cuts in my mind, but they are very expensive, and there 
are a lot of very important people who are desperately looking 
for money to fund urgent priorities.
    This subcommittee has a better chance of protecting 
carriers than almost any entity. Stand firm in protecting this 
priority.
    Moving on, as a lifetime submariner, I can only thank the 
Congress for its wisdom in permitting multi-year procurement of 
Fast Attack Submarines (SSNs), perhaps the one step that will 
permit this Nation to maintain a force level to execute their 
many missions with which this committee has first-hand 
familiarity.
    The retirement rate of these ships is frightening, and you 
have already taken action to allow the Navy to do the right 
thing. Our submariners will always take care of these versatile 
ships. Unfortunately, addressing naval challenges through new 
classes of ships carries a heavy price.
    Not only do they always cost more than predicted, no matter 
where the fault finger is pointed after the bill is added up, 
the money cannot be recaptured until we climb a long distance 
up a lessons-learned curve.
    We must augment, not decrement, fleet size. Therefore, I 
would emphasize these points: First, I recommend against 
additional DDG-1000s (Zumwalt class destroyers), not because it 
will not be a fine ship, but it is too expensive. It takes too 
long to build and will inevitably lead to a lower total number 
of ships in the fleet. The one outcome we cannot permit.
    I recommend as many improved DDG-51s (Arleigh-Burke class 
destroyers) as we can afford. We know how to build them. The 
value for cost is high. The maintenance is affordable. And we 
know how and when to make improvements in them.
    Now how about the Littoral Combat Ship (LCS)? I used to 
have a nifty set of remarks appropriate only among retired 
admirals about how dumb an idea this was. It was not helpful, 
but guess what? After everyone is done beating everyone else up 
over the excessive cost, the lousy contractor performance, the 
poor coordination that was demonstrated, requirements creep and 
so on, we finally got two hulls built.
    LCSs will move toward a reasonable unit cost much faster 
than the next idea that comes down the chute. Essentially, 
everyone agrees that part of the Navy mix must include a lower-
end ship, not too many I hope. Once we get these ships running 
right, the Navy will converge on the right combination of war-
fighting modules.
    And these ships will become workhorses that we can move 
around the world and address some of the U.S. naval presence 
requirements that do not require battle groups. I am beginning 
to wish I had thought up this idea.
    In a recent article in Naval Institute Proceedings, to 
which the chairman referred, written in collaboration with Rear 
Admiral Jim Stark, we made two points I would repeat here.
    The first dealt with the ship's requirement process where 
we talked about doing a better job of controlling the number of 
good ideas we would like to include in new ships. This, by the 
way, bears directly on the acquisition reform question.
    Adding promising technologies, more robust combat, and 
command, control, communications, computers, and intelligence 
(C4I) systems is tempting for obvious reasons, especially given 
the range of solutions, range of scenarios that these ships may 
face.
    But at some point, it is counterproductive to augmenting 
the number of ships in the Navy. Scrubbing the requirements 
process is easier said than done, but the key is that once we 
reach our decision at the outset, we must have absolute control 
over subsequent changes to those requirements.
    In our opinion, the authority to approve such changes 
should be limited to the Secretary of the Navy. But the 
important point here is to limit the number of requirements-
driven change orders that have such a big impact on ship 
construction costs.
    The second point deals with Marine Corps support. This 
mission is fundamental and none of the variety of military 
challenges of the last few years has changed that. The number 
and mix of vessels needed to provide the requisite lift for the 
Marines has changed over the past two decades.
    These ships have become larger, more expensive and more 
capable, while at the same time, the number required has 
declined. Because amphibious ships are employed in combination, 
they should be judged on the capability of the expeditionary 
strike group or amphibious ready group as a whole, rather than 
on the size and the cost of individual units. This should be a 
less controversial aspect of the fleet numbers and mix issue 
than some others.
    On the subject of acquisition reform, I know we all agree 
it is important, and we would like to address the problems and 
prescribe the right cures. I listened with fascination the 
other night when the President addressed this issue. And, of 
course, nobody knows better than the people in this room, you 
can go and ask anybody if we ought to have acquisition reform, 
and it is impossible to have any answer other than yes.
    The problem, of course, the devil is in the details. I hope 
before we enact new layers of directives in legislation that 
the Office of the Secretary of Defense (OSD), the Congress, and 
others will talk to folks who have demonstrated real expertise 
in buying expensive, complicated products from major defense 
contractors. Expertise is established by records of personal 
accomplishment not by the title on office doors.
    We cannot address acquisition reform by adding more rules 
and regulations. That is how we got to where we are. 
Ostensibly, the idea of adding more rules and regulations has 
appeal because it precludes repetition of past problems.
    Mr. Taylor. Admiral.
    Admiral Houley. Sir,
    Mr. Taylor. Before you go any further, I want a recommended 
list from you of the five people that you think are the best at 
that.
    Admiral Houley. I would be delighted to----
    Mr. Taylor. Thank you very much, sir.
    Admiral Houley [continuing]. Provide that, sir.
    Mr. Taylor. Please proceed.
    Admiral Houley. Current regulations are excessive in number 
and in complication, and we are one of the sources of our own 
problems rather than part of the solution. We must avoid 
walking around the real problems and further complicating an 
already overly complex process.
    There are a lot of serious-minded men and women who have 
proved themselves in acquisition and business. Making the 
system work should be their challenge to address.
    And I might add parenthetically, since the chairman has 
given me this invitation to provide some names, one of my past 
experiences was the defense reform principal for the Secretary 
of Defense when Secretary Cohen was in his position.
    I should have known before I went there that naive men and 
women should not walk into a job that is titled, ``Defense 
Reform,'' because it--it sounds like a really good idea, but 
unsurprisingly, it is rather difficult to do, and one of the 
difficulties, and I believe everybody in this room knows it, is 
everybody is in favor of reform. Everybody is in favor of 
fixing things until it affects their job description, and then 
suddenly, their interest and enthusiasm seems to diminish very 
quickly.
    You ladies and gentlemen are all students of history. So 
many of our Nation's predecessors in friendly and not-so-
friendly countries have encountered financial pressures akin to 
our own today. Slowly, they saved money by agreeing to fewer 
and fewer ships with less and less capability.
    Without apparently realizing when they were doing so, these 
nations eventually gave up their ability to project power in a 
meaningful manner. Even when the lights go on and the 
circumstances make it obvious that this has happened, they 
discover that to regain strength of this kind requires a 
reversal of policies that, in the best of circumstances, would 
take many years and be prohibitively expensive.
    I guess one of the concerns that we all share is that, over 
a period of years, we keep chipping away at the size and 
strength of the Navy and no particular decision is fatal. No 
particular decision has enormous impact on the future, but the 
net result of coming up with a smaller and less capable Navy 
over a period of time, unfortunately, does not change the 
number of challenges that Navy is expected to face.
    We cannot afford to make this mistake. Our responsibilities 
are too great, and there is no backup plan. This is why I 
believe that while your challenge is of great importance, it is 
not incredibly complex.
    We need to augment our fleet in numbers and in capability 
and limit the introduction of new ship classes and big changes 
to the maximum degree possible. That is why I feel that, 
although, every year you are obviously faced with important 
decisions to make and important issues to be addressed, one of 
which is always, what kind of a Navy do we need? What sort of 
threat are we building the Navy for?
    Those are important, useful questions, and I support 
exploring them to whatever degree you can. But I will say that 
what we end up doing has marginal impact on the long range, and 
if we don't get out of the business of building new classes of 
ships, for a while at least, we are in a world of trouble.
    And if we don't get on with the business of building more 
ships, we are in a world of trouble. So I am much more 
interested in trying to improve our progress in shipbuilding.
    [The prepared statement of Admiral Houley can be found in 
the Appendix on page 39.]
    Mr. Taylor. Admiral, thank you very much. We have now been 
joined by Dr. Barnett.
    Dr. Barnett. We are going to waive the normal 5-minute rule 
for our witnesses, but if you could keep it under 10, we would 
greatly appreciate it in fairness to the other witnesses.

STATEMENT OF DR. THOMAS P.M. BARNETT, SENIOR MANAGING DIRECTOR, 
                     ENTERRA SOLUTIONS, LLC

    Dr. Barnett. Having spent the last decade arguing that 
America's grand strategy should center on fostering 
globalization's advance, I welcomed the Department of Navy's 
2007 Maritime Strategic Concept that stated, ``As our security 
and prosperity are inextricably linked with those of others, 
U.S. maritime forces will be deployed to protect and sustain 
the peaceful global system comprised of interdependent networks 
of trade, finance, information, law, people and governance.''
    In my mind, rather than simply chasing after today's ever-
changing lineup of relatively minor and manageable maritime 
security threats, the Department of Navy logically locates its 
long-term operational center of gravity amidst globalization's 
tumultuous advance.
    For it is primarily, overwhelmingly, in these frontier-like 
regions that we locate virtually all of the mass violence, all 
of the terrorism, and all of the instability in the system, all 
the failed states.
    Moreover, this strategic bias towards globalization's 
frontier regions, especially the Arabian Gulf and the Indian 
Ocean, makes eminent sense in a time horizon likely to witness 
the disappearance of the three major war scenarios that 
currently justify our Nation's continued funding of our big-war 
force.
    Namely, a Taiwan that integrates economically with mainland 
China; an Iran, whose successful pursuit of a nuclear capacity 
will soon rule out any potential major U.S. intervention; and a 
North Korea, whose inevitable collapse presents no significant 
possibility of triggering major war among intervening great 
powers.
    As our leviathan's primary war-fighting rationales fade 
with time, its proponents will seek to sell both this body and 
the American public on the notion of coming resource wars with 
other great powers. This logic, in my opinion, is an artifact 
from the Cold War era, during which the notion of zero-sum 
competition for Third World resources held significant 
plausibility, primarily because economic connectivity between 
the capitalist West and the socialist East was severely 
limited.
    But as the recent financial contagion proved, that 
trifurcated global economy no longer exists. The level of 
financial interdependence among and across globalization's 
major markets in addition to supply chain networks renders moot 
the specter of zero-sum resource competition among the world's 
great powers.
    If anything, global warming's long-term effects on 
agricultural production around the planet will dramatically 
increase both East-West and North-South interdependency as a 
result of the emerging global middle class's burgeoning demand 
for more resource-intensive foods.
    To the extent that rising demand goes unmet or developing 
region suffers significant resource shortages in the future, we 
are exceedingly unlikely to see resumed great power conflict as 
a result. Rather, we will witness even more destabilizing civil 
strife in many fragile states.
    As such, I see a future in which the small-wars force, more 
Army and Marines, experiences continued significant growth in 
its global workload, while the big-war force, more Navy and Air 
Force, experiences the opposite.
    As a result, I predict the Department of Navy's blue-water 
fleet will shrink significantly over the next couple decades, 
while its green/brown-water fleet will expand dramatically 
along with associated personnel requirements, notably with the 
Marines.
    As our current naval leviathan force enjoys a significant, 
as in several times over, combat advantage over any other force 
out there today, and I would cite Bob Work's analysis on that, 
our decisions regarding new capital ship development should 
center largely on the issue of preserving industrial base.
    My advice in this regard is that America should go as slow 
and as low as possible in the production of such supremely 
expensive platforms, meaning we accept that our low number of 
buys per design class will be quite costly. But I like 
maintaining that technological hedge.
    To the extent the fleet numbers are kept up, such 
procurement should largely benefit the small-war force's need 
for many cheap and small boats, preferably of the sort that can 
be utilized by our forces for some period of time and then 
given away to developing country navies to boost their maritime 
governance capacity, a key goal going forward.
    Along these lines, I firmly support the Navy's Global 
Maritime Partnerships Initiative, especially when our naval 
forces expand cooperation with rising great powers like China 
and India, two countries whose militaries remain far too 
myopically structured around border-conflict scenarios for 
China, Taiwan, for India, Kashmir.
    America must dramatically widen its definition of strategic 
allies going forward, as the combination of an overleveraged 
United States and a demographically moribund Europe and Japan 
no longer constitutes a quorum of great powers sufficient to 
address today's global security agenda.
    In short, I want allies with million man armies who are 
having lots of babies, rising defense budgets and are willing 
to go places and kill people in defense of their interests.
    To conclude, given America's ongoing ground operations, our 
Navy faces severe budgetary pressures on future shipbuilding. 
Those pressures will only grow with the current global economic 
crisis, which fortunately generates similar pressures on navies 
around the world.
    Considering these trends as a whole, I would rather abuse 
the Navy fleetwise before doing the same to either the Marine 
Corps or the Coast Guard. Why? Our national security community 
currently accepts far too much risk and casualties and 
instability on the low end of the conflict spectrum while 
continuing to spend far too much money on building up combat 
capabilities for fantastic war-fighting scenarios.
    In effect, we stuff our big-war force while starving our 
small-wars force, accepting far too many avoidable real-time 
casualties in the latter while hedging excessively against 
theoretical future casualties in the former. I consider this 
risk-management approach to be both strategically and morally 
unsound.
    As Congress proceeds to judge the naval services long-range 
plans, my suggested standard is simple: Give America's naval 
forces fewer big ships with fewer personnel on them and many 
more smaller ships with far more personnel on them.
    In my professional opinion, the Department of Navy is 
moving aggressively and logically toward engaging the world's 
security environment as it truly is versus myopically obsessing 
over China's potential as some long-term, near-peer competitor.
    I suggest that Congress not stand in the way of this much-
needed and long-delayed evolution, even as it considers with 
great deliberation the requirements of preserving industrial 
base.
    Thank you.
    [The prepared statement of Dr. Barnett can be found in the 
Appendix on page 50.]
    Mr. Taylor. The chair thanks the gentleman.
    The chair now recognizes Dr. Thompson. If you would, try to 
keep it under 10 minutes, doctor.

 STATEMENT OF DR. LOREN B. THOMPSON, CHIEF OPERATING OFFICER, 
                      LEXINGTON INSTITUTE

    Dr. Thompson. I am going to try to keep it under five. I 
don't have a vote on the subcommittee, but I would like to 
second the chair's endorsement of Admiral Houley's article in 
the January Proceedings. I thought it was very well done and 
one of the largest concentrations of common sense I have seen 
in a long time.
    Thank you for the opportunity to be here today. I would 
like to briefly review the military and economic challenges our 
Nation faces and then draw some conclusions about the outlook 
for naval ship construction.
    The security challenges we face today are not worse than 
what we faced 20 years ago. I mean, what could be worse than 
having 10,000 nuclear warheads aimed at your country? However, 
the challenges are more diverse. Many of the challenges that 
trouble us most today, such as failed states, Islamic 
terrorism, nuclear proliferation, barely affected our military 
plans at all during the Cold War.
    But that world is now long gone, replaced by a landscape of 
dangers that are at once ambiguous and ubiquitous thanks to the 
information revolution. In this new world, the joint force must 
be all things to all people, because we simply can't predict 
how the threat is going to change from year to year.
    The sea services now spend much of their time engaged in 
nontraditional missions, and those missions often must be 
carried out even farther from home than in the past. To take 
just one example of this, Strait of Hormuz, where two of our 
warships collided last week, is literally on the opposite side 
of the world from San Diego.
    So changes in the character and location of the security 
challenges we face by themselves would be enough to warrant a 
rethink of what kind of Navy we need. However, that will not be 
the biggest concern we have in the decade ahead.
    The biggest concern we will have is that our economy is in 
decline, and the federal government is out of money. How broke 
is the federal government? The federal government is so broke, 
that during the 2 hours we will be meeting here this morning, 
it will spend $400 million that it does not have.
    It is so broke, that the federal debt has doubled to $11 
trillion in just 8 years, and according to the Congressional 
Budget Office (CBO), it threatens to double again in the next 8 
years. The federal government is so broke, that we are 
sustaining our defense posture, in part, by borrowing money 
from the country we say we are getting ready to fight.
    Now, how crazy is that? There is no time in living memory 
when U.S. finances have been in such bad shape, and therefore, 
all the things we thought we knew about the future availability 
of funding for the joint force are now suspect.
    I have attached to the remarks I gave the subcommittee my 
cover story from the current issue of Armed Forces Journal 
about the impact of our economic decline on military 
preparedness. Suffice it to say that the days when 5 percent of 
the world's population, us, could sustain nearly 50 percent of 
the world's military spending are coming to an end.
    What that means for naval ship construction is that current 
Navy plans are not affordable. If we build the kind of 
networked, interoperable national fleet envisioned in the Joint 
Maritime Strategy, then we can get very good results from the 
warships we do buy.
    But we cannot get Navy ship numbers above 300 any time 
again unless we purchase smaller, cheaper warships. 
Unfortunately, that approach will not work with aircraft 
carriers or submarines where we are locked into costs and 
construction rates that can only be cut by substantially 
reducing our global presence and war-fighting capability.
    We must sustain production of the Ford class of future 
aircraft carriers at the rate of one every four years. 
Otherwise, the number of flattops in the fleet will not get 
back to the number of 12 that is required. And we must build a 
Virginia class of attack submarines at the rate of two per year 
for the foreseeable future if we are to avoid huge gaps in 
undersea warfare and in intelligence gathering capabilities, 
intelligence gathering being their single most important 
function today.
    Thus, the savings that are needed to bring naval ship 
construction into alignment with likely resources will have to 
be found mainly in surface combatants and vessels associated 
with amphibious warfare. The Navy has already begun the 
necessary adjustments by proposing to cancel the DDG-1000 
destroyer, which is too costly and ill-suited to the emerging 
threat environment.
    Terminating production at three vessels, and preferably at 
two, while continuing construction of versatile Aegis 
destroyers, is the only sensible response to military and 
fiscal realities.
    With regard to smaller surface combatants, the Navy needs 
to make a choice between the two versions of Littoral Combat 
Ship and consider supplementing LCS with the more conventional 
National Security Cutter being built by the Coast Guard.
    Now, I don't mean we need to choose between the two 
versions of LCS today. We need to give them both a fair chance 
to show themselves in operational environments. But eventually, 
we have to choose.
    It is much too early to call LCS a failed program. The lead 
ship was delivered to the fleet in half the usual time, and it 
had a very successful inspection. But the warships will cost 
more than expected, and more importantly, there are 
uncertainties surrounding the concept of operations.
    While the National Security Cutter is slower, and it 
requires deeper water to operate, it has similar onboard 
equipment, and longer endurance make it potentially applicable 
to many, many missions.
    The amphibious fleet presents a bigger puzzle, because it 
appears that the stated requirement for 33 warships is too 
small given the need to establish global fleet stations and the 
fact that all of our up-armored equipment is heavier and 
bulkier than what we were planning to put on the ships.
    Now, the decision to use the LPD-17 (Amphibious Transport 
Dock ship) hull as a replacement for aging LSD vessels is a 
step toward greater affordability. It reduces design costs and 
extends serial production of a known hull. However, there are 
real doubts about the affordability of the future maritime 
prepositioning force, and I guess one signal of that is the 
fact that when the Office of Management and Budget (OMB) sent 
their 2010 revised guidance to the Pentagon on January 29th for 
preparation of the next budget, they actually suggested 
canceling the Maritime Prepositioning Ships for the future.
    I would be pleased to elaborate on my views concerning all 
these programs during the question and answer period and also 
any additional programs concerning aircraft that you are 
interested in bringing up or networks.
    [The prepared statement of Dr. Thompson can be found in the 
Appendix on page 65.]
    Mr. Taylor. Thank you very much, sir.
    The chair now recognizes Mr. Ron O'Rourke.

  STATEMENT OF RONALD O'ROURKE, SPECIALIST IN NAVAL AFFAIRS, 
                 CONGRESSIONAL RESEARCH SERVICE

    Mr. O'Rourke. Chairman Taylor, Congressman Akin, 
distinguished members of the subcommittee, thank you for the 
opportunity to speak today on the future of the Navy. With your 
permission, I would like to submit my statement for the record 
and summarize it briefly here.
    Mr. Taylor. Without objection.
    Mr. O'Rourke. The future of the Navy is a topic with a lot 
of dimensions. So I tried to focus on some aspects that may be 
of particular interest to the subcommittee. An initial point is 
that, given the long lives of Navy ships, many ships currently 
in service will still be in service 10 to 20 years from now. 
And so, in this sense, a part of the future Navy is already 
with us today.
    A second point is that the relatively low shipbuilding rate 
in recent years has increased the challenge of achieving and 
maintaining a 313-ship fleet. The shipbuilding rate has 
averaged about 5.4 ships per year for the last 17 years.
    You can't build ships at that kind of rate for that many 
years without getting behind the eight ball for achieving and 
maintaining a 313-ship Navy. Something like 12 ships per year 
will now be needed in coming years for a 313-ship fleet.
    A third point is that current technical trends in Navy 
acquisitions suggest that the future Navy will likely feature 
an increasing use of unmanned vehicles, networking capabilities 
and open architecture computers and software, as well as ships 
with reduced crew sizes, integrated electric drive, common hull 
designs and components and increased modularity.
    The future Navy will also likely feature a continued 
necking down in aircraft types, models and series and possibly 
new types of weapons such as directed-energy weapons.
    Some think tanks have recently published proposals for 
future Navy ship force structure, and what is notable about 
these proposals is how they would take the Navy in different 
directions. What these proposals illustrate is how the Navy 
currently is at a decision point in terms of future mission 
priorities, and how choices about those mission priorities can 
lead to differing versions of the future Navy.
    To examine this issue, I organized potential future Navy 
operations into four general categories using a scheme similar 
to one that I have presented at the Naval War College and the 
Center for Naval Analyses.
    One of these categories includes things like engagement and 
partnership-building operations, humanitarian assistance and 
disaster relief operations and maritime security operations. 
Another category includes counterterrorism and irregular 
warfare. A third concerns operations relating to larger scale 
conventional conflicts on the continental landmass, and the 
fourth category relates to countering improved Chinese naval 
forces.
    My testimony discusses how putting a planning emphasis on a 
given category can lead to investments in certain platforms and 
capabilities. Policymakers can choose to emphasize any or all 
of these categories. In theory, these choices should reflect 
broader decisions about U.S. security strategy, and given 
resource constraints, the decision to place more emphasis on 
one category could require putting less emphasis on others.
    My statement also discusses some additional planning 
considerations including the importance of forward deployed 
presence as a planning metric. Maintaining forward deployments 
can be important or even critical to performing operations in 
all four categories. And maintaining such deployments can 
sometimes require having more ships in inventory than might be 
required solely for combat operations.
    Finally, my statement discusses a number of shipbuilding 
issues relating to the future Navy. One of these concerns how 
potential changes in the aircraft carrier force level goal 
might affect the schedule for procuring future carriers. A 
second issue concerns reported potential out-year reductions in 
attack submarine procurement.
    A third issue concerns the potential viability of a CG(X) 
(cruiser) program of eight ships procured at a rate of one ship 
every three years, which is an option the Navy reportedly has 
considered. A fourth issue concerns the future procurement of 
destroyers where OSD's position of ambiguity from last year has 
recently changed to a position that might be called modified 
ambiguity.
    And a fifth issue concerns whether procurement of LCSs 
should be supplemented with procurement of other smaller 
surface combatants. My statement also discusses shipbuilding 
issues such as amphibious and maritime prepositioning ships and 
the possibility of building ships with extensive growth margins 
so that they might be easily backfitted later on with 
significant amounts of additional weapons and sensors.
    The main point I want to leave you with is that the Navy in 
coming years can go in various directions depending on choices 
that are made about how much emphasis to place on preparing for 
various kinds of operations. An absence of clear decisions on 
planning priorities could result in a Navy that muddles along 
with no clear focus and potentially inadequate capabilities for 
performing certain desired missions.
    Without a clear sense of priorities, program decisions 
might be made more by budget drills and Navy plans and programs 
could be subject to repeated shifts as successive Navy leaders 
link their own interpretations to an unclear list of 
operational priorities.
    Mr. Chairman, this concludes my opening remarks, and I will 
be happy to answer any questions the subcommittee may have.
    [The prepared statement of Mr. O'Rourke can be found in the 
Appendix on page 77.]
    Mr. Taylor. The chair thanks the gentleman.
    We now recognize our ranking member, Mr. Akin, for five 
minutes. I am sorry, Mr. Akin, unlimited time for the ranking 
member.
    Mr. Akin. I will try to take that in advisement. Thank you, 
Mr. Chairman.
    The first question I have, I guess, is a really basic one. 
I asked it to another panel of witnesses, and they didn't 
really answer the question. So I thought I would try it on you, 
and that is, particularly, this was in light of the DDG 
situation, but is the purchasing strategy, which I just 
recently found out was pretty much dictated by Goldwater-
Nichols, where the Navy sets the requirements and then 
different people in acquisition basically work with a 
contractor to build something.
    Is that a good way overall to be acquiring ships, or is 
that process mechanically somewhat structurally not as good as 
it should be? And I am asking the question coming as an 
outsider but many years ago working for IBM, and we used to 
manage projects.
    And one of the very single first rule is, if you have got a 
project that is a priority, you put one person in charge of it, 
and you put your finger in their belly button and say, ``Look, 
here is the deal, you are going to have this much money and 
this is what the product is going to have to look like, and we 
are going to hold you accountable for making that work.''
    What I saw here on the DDG was that it looked like somebody 
had shot a rudder out from under a ship and it was kind of 
wandering around. So my question to you is, structurally, is 
that process in need of repair, first question.
    Dr. Thompson. I would like to respond first by making two 
points: First of all, my recollection is that when the 
Goldwater-Nichols legislation was passed, we had a handful of 
programs that had major cost overruns, schedule problems, or 
technical hurdles. Near as I can tell, they almost all do now.
    So I would have to conclude that if the purpose was to 
reform and make more efficient the acquisition process, it has 
failed. It certainly has managed to increase the number of 
parking spaces at the Pentagon, but whether it has increased 
the number of weapons systems or the efficiency with which they 
are fielded, I think is extremely doubtful.
    The second point I would like to make is, you know, I 
normally don't focus on Navy. I normally focus on aerospace and 
networks. What I have noticed though is that across all the 
war-fighting communities and across all the services, we have a 
system where there are simply too many players.
    It starts at the requirements level, and it ends up at the 
user level, but so many people at each stage in the process are 
participating in the concept of operations, the selection of 
the contractor, the definition of the operational requirements 
that it is impossible to field anything that is cheap.
    It doesn't matter how simple the original concept is, 
whether it is boots or bullets. It is going to end up more 
expensive than if IBM had built it.
    Mr. Akin. Excuse me, I made a little Freudian slip here. I 
was talking about LCS and not DDG. I am sorry.
    Dr. Thompson. Well, I can be more specific on that. In the 
case of the Littoral Combat Ship, what we have here is a very 
exciting idea, but it was an idea that was generated by the 
Navy under pressure from the Office of the Secretary of Defense 
to come up with neat ideas. They are known as transformational 
ideas.
    It may be a real breakthrough in naval warfare, but the way 
they tried to do it, the business plan, the going to the 
second-tier yards, the definition of all sorts of capabilities 
not previously resident on frigates or other small warships, 
guaranteed there would be problems.
    Now, I actually think the program is not going that badly. 
But let's face it, it is not going to come in at $220 million a 
copy, and I think the larger problem, which nobody has focused 
on yet, is that this is still a neat idea. We don't know how it 
is going to do out in the Indian Ocean with four crews for 
every three ships, with 40-knot fuel costs, you know, and all 
those other things that are associated like the modular mission 
packages.
    The jury is still out on whether the concept will work. The 
boats aren't bad for what we are trying to do, but whether they 
actually fit in well with our naval force structure and concept 
of operations, we won't know that for a while.
    Admiral Houley. First of all, the thesis of your question 
compares IBM to the defense system, and for the very reason you 
pointed out. The direct answer to your question is the system 
that we have is lousy, and it has not worked very well, though 
well intended.
    And the reason that it can't work very well is because 
there are too many cooks, and therein we are back to our 
acquisition reform. And I know you don't want to spend the 
morning on this question, but the reason that it doesn't work 
is not only because there are too many players, but because we 
are always trying to accomplish so many things at the same 
time.
    You will recall that Goldwater-Nichols was not terribly 
well received by the military services. We have since learned 
our manners as well as learned all of the good things that came 
from that rationale. But when we were back in the process that 
we are in right now, the military kind of shut itself out of 
the debate and had to live with the results without being able 
to influence them.
    And every time you add somebody, even if it is somebody who 
is terribly well respected who can play with the, in this case, 
the requirements process, you are bound to be going in the 
wrong direction. One of the points that Dr. Thompson made that 
is particularly important to remember is, as I said in my 
statement, there is lots of blame to go around about LCS, and 
that is a process that you all have probably spent a lot of 
time on already.
    But one of the things that was central to all of that is 
that the Navy saw that they had to do something. And so they 
went ahead and did something rather than determining what 
needed to be done and coming to you and to all of the other 
people in the process with an answer.
    So it kind of stunk, and it began there, and it just kept 
on going and unraveling, and it has not helped with more 
people. So I am back to the same thing. The direct answer to 
your question is, it is not helpful, and it is not good, 
although the intentions were honorable and indeed have probably 
given us many benefits.
    Mr. Akin. Well, I appreciate what you are saying, because I 
am of the opinion that you could take good people and put them 
in a bad system and you get bad results. And that can happen 
very easily. That is why I am asking the very specific question 
about the structure of how we approach this.
    And I don't think we should zing people for being future-
thinking and saying, let's get moving and let's drive this 
process more rapidly. But we have to know how we are doing 
that. But thank you, I was going to--Mr. O'Rourke.
    Mr. O'Rourke. Just a few additional points. It is worth 
remembering that the LCS program was pursued deliberately as 
one that would be done differently from the normal shipbuilding 
process. And so if there are problems in that program, they are 
not necessarily representative of problems in the larger 
process.
    In particular, the LCS program, I think, as just been 
alluded to, was pursued with a strong focus on reducing 
acquisition cycle time, and so they were very interested in 
doing things very quickly, and that got them into a situation 
of concurrency between design and construction, which is one of 
the oldest no-no's in defense acquisition. And it led to a 
situation of haste makes waste.
    So there were problems in that program, but whether that 
says something necessarily about the default process for 
shipbuilding is less clear, because the LCS started off trying 
to do something different in the first place. In terms of that 
general process, there is a couple points I can mention, and 
one has to do with requirements control, requirements 
discipline.
    And there was a period in the 1990s when the requirements 
police, as it were in the Navy, which was a body called the 
Ship Characteristics Board or the Ship Characteristics 
Improvement Board, or the SCIB, was weakened or disestablished.
    And during that period of time, they were not there to 
police the requirements process for Navy ship designs, and 
there is at least one ship that was designed during that 
period, which some people have said suffered requirements 
growth because of the weakening or the disestablishment of the 
SCIB during that period.
    The Navy since that time has taken steps to reestablish 
that requirements police force under a different name and to 
apply it not only to shipbuilding but to aircraft and other 
acquisition as well. You raised the question of whether there 
should be stronger centralized control, and I think that is a 
fair question.
    Because other observers have raised this issue as well, and 
when they do, they point to other examples of where the Navy 
has successfully pursued very complex and technical acquisition 
efforts because there was centralized control. And the examples 
that are usually raised are the setup that we have for naval 
nuclear propulsion, the Naval Reactors Office, the Special 
Systems Project Office, or SSP, that brought ballistic missiles 
into the Navy.
    And a third example that is sometimes raised is the rather 
centralized control for the Aegis development program during 
the 1970s and 1980s and into more recent years. Those setups 
are all somewhat different from one another, but they all 
featured strong control with ultimately direct accountability 
by one person at the top.
    But there is one other issue that I think is important in 
shipbuilding, which is that shipbuilding is a long-term 
process. It takes many years for a program to pan out. And so 
there is a long time between when somebody might make a promise 
about a shipbuilding program and when the results start coming 
in.
    And that raises the question of whether there should be 
some steps taken to make it more possible for somebody who 
makes a promise at the front end of the process to still be 
around at the back end of the process to be held accountable 
for it.
    And one option to do that would be to set up a director of 
shipbuilding with a very long tenure somewhat similar to what 
you have, for example, with the director of naval reactors 
(DONR). Now, there is pluses and minuses to the option of 
establishing offices with long tenures, and you would have to 
carefully think about that.
    But that is one option for getting at the issue of possibly 
making sure that if a promise is made about a shipbuilding 
program in year (A) that that same person will still be there 
to be held accountable for that process years down the road 
when the return data starts to come in.
    Mr. Akin. Thank you very much.
    Dr. Barnett. If I could----
    Mr. Akin. Do you want to do a fourth response, Mr. 
Chairman?
    Dr. Barnett. If I could just follow quickly with a 
historical note. I worked with Art Sybrowsky at the Naval War 
College during the time period where he dreamed up the LCS, and 
then I worked as an assistant with him in the Office of Force 
Transformation during the first two years of operation.
    I will tell you just as an historical note, which is 
important, I think, that what they were trying to do with LCS 
was to kind of break this mentality within the Navy that its 
ships were, in effect, sort of a glass jaw that if we lost one, 
it was catastrophic.
    Okay? So he was trying to introduce a fighter pilot 
mentality toward accepting more risks within the fleet. That is 
why they went for a small ship that would be close and operate 
in the littoral, accept much higher levels of risk, and some of 
the original designs really focused on things like almost a 
command module that could eject like a fighter pilot ejects out 
of a plane.
    Okay? So the dream was to bring a much higher tolerance of 
risk, get much closer to the actual land security environment. 
What happened with that dream was that it was subjected to a 
system that purposely tries to drain all risk out of ship 
design. So it junked it up. It put all sorts of bells and 
whistles. The modularity was lost. All sorts of defensive 
measures and things that, kind of, codified the design made it 
stagnant and static were introduced over time.
    And my perception of that process, it is right out of Allen 
Drury's novel, ``The Pentagon,'' which was about the creation 
of a landing craft air cushion (LCAC) during a crisis situation 
where the Navy wanted to dream up this new landing craft 
vehicle to deal with this crisis that was developing.
    And because the military kept adding all these bells and 
whistles, the machinery was never delivered. The war never 
happened, and the whole system kind of ground to a pointless 
halt. I saw that problem with the LCS. I thought it was a good 
attempt to move the Navy towards a different risk tolerance, 
and it failed because the system simply does not allow any sort 
of risk.
    Mr. Akin. Thank you very much, gentlemen. It has been very 
helpful.
    Mr. Taylor. I very much appreciate the gentleman's 
comments. I would also remind the gentleman that one thing that 
we, as both congressmen and parents, can never tolerate is the 
thought of a disposable ship, because a disposable ship could 
lead to a disposable crew, and we are not going to have that.
    Dr. Barnett. Well, my argument, you know, it is similar to 
what the Army's moved towards in terms of counterinsurgency. 
You accept more tactical risk to garner more strategic gain. 
And Sybrowsky's concern in that regard was that the Navy was, 
in effect, pricing or risking itself out of utility or 
relevance, which is worse.
    Mr. Taylor. Thank you, Mr. Barnett.
    The chair now recognizes the chairman of the Readiness 
Committee, Mr. Ortiz.
    Mr. Ortiz. Thank you so much for appearing before our 
committee this morning. I think we have had some wonderful 
testimony this morning. You know, yesterday, I had a hearing 
with Navy officials to discuss the shortfalls in Navy 
operations and maintenance (O&M) on the accounts for ship 
maintenance.
    And the impact of underfunding ship maintenance means a 
decreased platform, life expectancy and decreased fleet 
readiness. Since each service is facing budget constraints, in 
your opinion, how can the Navy balance sustainment and 
maintenance cost with the acquisition of future platforms?
    Do you think acquisition reform is the answer to some of 
these problems that we have? Anybody that would like to.
    Dr. Thompson. Well, one of the things you can do, 
Congressman Ortiz, that we have not done well in the past is to 
build reliability and maintainability into the war-fighting 
system. Just to take a simple example, the way that we have 
designed the Virginia class attack submarines, there is no 
midlife refueling. It has got a life of the ship core.
    Because there is no midlife refueling, you have managed to 
keep it in service longer and save a lot of money that our 
other nuclear systems have to expend in order to stay 
operational for their full service life. So that would be a 
fairly large but kind of obvious example of how you can save 
money.
    The Littoral Combat Ship was actually designed with the 
notion of maintainability and readiness in mind. That is one of 
the reasons why there are actually four crews associated with 
each of the three ships. It allows you to turn the ship around 
faster. It allows you to get more productivity out of the 
vessel. So there is a lot of different ideas for doing that.
    But as Mr. O'Rourke said up front, it takes so long to 
implement these programs that, a lot of the time, the great 
ideas go off the track before we come to fruition. And in that 
regard, I would just like to go back to one thing I said in my 
opening remarks.
    The Littoral Combat Ship is not a failed program. We 
haven't had enough time. It has only run half the length of a 
normal development program for a warship. So calling it failed 
now is really a prescription for wasting a ton of money and 
starting over with nothing to show for it.
    Mr. Ortiz. Yes, sir.
    Mr. O'Rourke. Just very quickly, the issue you are raising 
has been termed by others sometimes as the tension between 
current readiness and future readiness, current readiness being 
promoted through the maintenance of ships that you have; future 
readiness being prepared for by the ships that you are building 
for the future. And that is an ongoing tension within the 
Navy's budget right now.
    My sense is that the Navy believes that they must pay a 
certain amount of priority to maintaining the ships that they 
have, especially since we are in the midst of two wars right 
now, and that can come at the expense of the shipbuilding 
budget, which supports future readiness.
    And there is one other tension as well: One way that you 
can help to reduce the competition between these two things is 
to build future ships, as Loren mentioned, so that they require 
less maintenance during their life cycles. And that can mean 
building the ships with higher quality materials or more 
ruggedness in their structure.
    And the irony there is that taking steps to do that in a 
ship's design can actually make it more expensive to procure. 
So as we look at the idea of trying to reduce the cost of 
shipbuilding, we need to remember that there can be a cost down 
the road for reducing a ship's procurement cost, because it can 
have the effect of increasing the amount of maintenance that 
that ship might need to receive over its life cycle. And that 
would add to this continuing tension between current and future 
readiness.
    Admiral Houley. One comment that I would add to this 
discussion, and I agree with what has been said thus far, is 
the area that you are looking into or were discussing 
yesterday, I dare say will never disappear from the agenda over 
the next 500 years.
    But I think it is fair to say that the issue of apparent 
underfunding of operation and maintenance, which always seems 
to show up during the year as we run into successive problems 
that may or may not have been foreseen. Our ability to deal 
with those problems and the number that we have that should 
have been anticipated, I think has actually gotten better over 
the years.
    And if we can certainly not ignore that problem because 
nobody knows better than you the number of dollars that are 
involved here. It is huge. So it is a lucrative and important 
target to spend time on, but I think that the abuses and the 
problems are the ones that have gotten heavy emphasis here 
already this morning, acquisition reform, requirements reform, 
better discipline and accountability so that we have as much 
confidence as we can, given that we are dealing with human 
beings as well as ships, that we are policing or managing our 
meager resources as well as we reasonably can.
    My hats are off to the Navy. I think they are doing a 
better job since I left than they were when I was there.
    Mr. Ortiz. Just one short question. You know, we talked 
about a new ship comes out, either we put too much technology, 
too much equipment or we don't put enough, and it goes back to 
that $1 billion ship that run aground and hit a coral reef. Did 
we have the right equipment?
    I mean, I just cannot understand. I was in the Army. I was 
not in the Navy, so I don't understand much of the Navy. I am 
learning with my chairman here. But I would think that when you 
build a ship that is going to cost taxpayers $1 billion, that 
you would have the right technology so you won't run aground or 
hit a coral reef.
    I mean----
    Admiral Houley. You know, no one knows better than us that 
have done this that no matter how good your training is and how 
good your selection is of people, and you know what wonderful 
people we have. I mean, they are not just dedicated; they are 
really, really smart people. But periodically, and once again, 
this committee gets lots of focus on this, periodically, 
somebody goes out there and does something that you just can't 
believe how bad it was.
    I mean, sometimes when you unravel all the facts, you tend 
to find some extenuating circumstances, but more often, the 
more careful you look, you wonder where did we go wrong? Not 
where did the captain go wrong, but where did we go wrong? And 
I am afraid it is human nature.
    What you get out of this is exactly what you put into it, 
and that is a series of fleet commanders and Chiefs of Naval 
Operations (CNOs) who always emphasize the enormous and 
importance of investment and the training side of what we do to 
limit those kinds of things. Whether it is the loss of an F-22 
or wrecking, as you say, a multi-billion dollar warship, those 
things happen.
    And we can't legislate against them. We can just very 
carefully examine what the lessons are to be learned. I am very 
proud of my association with the nuclear program, and one of 
the things that I am proudest of is Admiral Rickover's 
insistence on the importance of training to the point of 
tediousness and certainly aggravation in the interest of making 
sure that we don't make mistakes in the areas we can.
    So I don't think there is a good answer to your very, very 
good question that it is going to make you feel better.
    Mr. Ortiz. Thank you so much.
    Dr. Barnett. I would add--there is an inherent tension 
between the Navy's desire to maintain its utility and to 
promote its utility as a node within a network force that 
projects combat power. So there is the desire to put a lot of 
technology on these platforms. There is tension between that 
and the Navy's more prosaic role as a networker with other 
navies and other coast guards around the world.
    And so it has a lot to do with your definition of the 
maritime security threat. Do you want to emphasize the very 
high technology, the possibilities of very high technology, 
high-end combat scenarios, or do you see more of the problem 
being kind of basic maritime governance?
    And when you junk up those forces, those platforms to the 
point where we have a hard time even talking to some of these 
other navies around the world, because the disparity between 
our levels of technology and theirs are vast.
    You know, then I think, you know, we go too much in the 
role of preserving sort of our big scary leviathan force, and 
we kind of take us out of the role of that all important 
networking force where you see a world that really needs a lot 
of mentoring in terms of small navies that have very little 
governance capacity off their coast, and where there is a lot 
of environmental damage and piracy and illegal movements of 
goods and so forth.
    So it is a tough tradeoff, but I think we have to see the 
Navy move more in the direction of administering to the system 
rather than kind of slavishly make any effort to remain 
relevant in high-end war-fighting scenarios.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Mr. Taylor. The chair thanks the gentleman.
    Admiral Houley. One of our continual frustrations, since 
the number of you who have touched on the LCS program, and I am 
calling on your expertise here, what I think I see are the 
people that the superintendent of shipbuilding will look at a 
set of plans, will go on that vessel and basically, just make 
sure that the plans are followed.
    What I don't see, and I wish I saw, and that is why I am 
asking for your advice here, is someone in the superintendent 
of shipbuilding's office who looks at that as it is being built 
and turns to the shipbuilder and says, ``There is a better way 
to do this; there is a better machine out there,'' where we can 
get more ships for our dollars.
    I mean, we have right off the bat an inherent conflict. The 
shipbuilder wants to make the most money per ship. We want to 
get the most ships we can get for the money we have, and what I 
don't see the superintendent of shipbuilding is that person who 
is prodding the builder to get better at what he does.
    I am going to ask you for another list of people who could 
inform this committee how we can best accomplish that goal, 
because having got rid of the lead systems integrators, we are 
going to have to bring that back in-house, and we want to 
empower the people who have that job working for our Nation to 
get the most ships per dollar.
    We want to find those people, and I want you to help me 
find them.
    With that, the chair recognizes the gentleman from 
Virginia, Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Gentlemen, thank you 
so much for joining us today. We appreciate you bringing your 
expertise to us and allowing us to ask you some questions. We 
really appreciate that.
    I want to refer in general back to January 2009, when the 
Navy announced a decision to home-port a nuclear carrier at 
Mayport Naval Station in Florida. And Mayport's never home-
ported a nuclear-powered carrier, and we are told that the 
military construction price tag will be $456 million plus a 
one-time maintenance cost of $85 million and a $24 million cost 
in personnel change of station. That is $565 million total.
    Additionally, the Navy estimates that it will cost $25.5 
million in annual recurring costs compared to keeping a carrier 
in Norfolk. This is due to the recurring cost of base operating 
support, sustainment, restoration, modernization costs, travel 
and per diem for transient maintenance labor.
    And I am just trying to understand all this in context and 
want to get your thoughts on this. If you could help me maybe 
understand how maintenance and readiness might be conducted on 
an aircraft carrier should one move to Florida as an element of 
the fourth fleet.
    And in your knowledge of this decision making, do you think 
the right people were consulted on the maintenance impacts of 
this arrangement during the Navy's decision-making process? And 
will the Navy be able to do or perform all the required 
maintenance work in Mayport, or will a Mayport home-ported 
carrier still need to travel to Norfolk for certain maintenance 
work?
    Admiral Houley. I think that question, I would be much more 
comfortable addressing in the Officer's Club than I am in a 
hearing in this building. No one appreciates better than a 
congressman that the question you just asked is a business 
question, a military question, and a political question.
    And the answer, clearly, changes depending on what your 
focus is. If my major concern were jobs in Florida, then 
obviously, my answer would be significantly different than as a 
former naval officer responsible for being able to add and 
subtract over whatever accounts I was responsible for at the 
time, the answer is pretty simple, you stay in Norfolk and 
don't complicate the problem, especially with the nuclear 
propulsion plant issues that are quickly raised.
    But I don't think that I am qualified to answer, or to 
address maybe is a better way to put it, the question, because 
I am not in full possession of all of the considerations. The 
simple, easy naval answer from a blue suiter, I think, more 
often than not, would be to please you at the expense of Mr. 
Florida.
    But I don't presume to be able to balance all of these 
pressures.
    Dr. Thompson. You know, I think it is not a hard tradeoff 
to make. I can't imagine any set of circumstances in which it 
would be cost effective to move a nuclear aircraft carrier back 
to Mayport, or to Mayport. I can't imagine any set of 
circumstances, unless our working assumption is that Norfolk 
won't be there in 10 years. Other than that, it makes no 
economic sense.
    Mr. Wittman. Mr. O'Rourke.
    Mr. O'Rourke. As you know, I maintain a Congressional 
Research Service (CRS) report on this issue, and it presents 
both sides without making a recommendation since CRS reports 
don't do that. But to answer your narrower question of where 
will the maintenance take place, as you know, the military 
construction (MILCON) for that proposed move includes the 
construction of a nuclear maintenance facility.
    So some forms of maintenance on the ship, up to a certain 
level, would be conducted in the Mayport home port. But if the 
ship were to need depot-level maintenance, if it needed to go 
into a shipyard for higher levels of maintenance, then the 
ship, presumably, would travel back to Virginia for that.
    Mr. Wittman. Just to put in perspective to the whole issue 
about maintenance. You know, the Navy has recently suspended 
their ship maintenance due to funding shortfalls, and it is 
unfunded budget requirements of 2009 are at 4.6 billion, and 
the sea service has a backlog of nearly 800 million in unfunded 
modernization and restoration projects at its four nuclear-
capable shipyards.
    And, you know, putting in perspective, again, I am going to 
ask this not from a political standpoint but purely from an 
analytical standpoint. Given these funding requirements, it 
would appear that spending more money to duplicate a 
maintenance capability there in Mayport, would only exacerbate 
the woes that exist right now.
    And do you feel that this is actually a good decision in 
light of those current conditions that we are having to deal 
with? Or do you believe that there might be a better way to 
pursue this to make sure the capability exists? But also, when 
we are looking at porting decisions, should those elements be 
kept in mind with that current backlog?
    Dr. Thompson. If I could offer a pointed albeit academic 
response to that, in preparing my opening remarks, I looked at 
the CBO study of how much money we are going to be spending 
this year. It is $1.85 trillion above and beyond what we are 
going to be taking in. That works out to $5 billion a day in 
deficit, or as I said, about $400 million during the time that 
we are having this hearing.
    In those sorts of circumstances, to waste money, which is 
what this is, waste money on something that is not germane to 
the Navy's war-fighting capability simply guarantees that the 
size of the fleet and its capabilities will diminish at a 
faster pace in the future.
    Mr. Wittman. Mr. O'Rourke.
    Mr. O'Rourke. In my report, I do get at this issue, which 
is sort of the bottom-line issue. It concerns the strategic 
benefit that might accrue from moving the carrier down to 
Mayport and how that measures up against other strategic 
benefits that might be produced by spending that money in other 
ways.
    For policymakers, I think that is the bottom-line question. 
You can spend the money to move the carrier down to Mayport, 
and the Navy will tell you that that generates certain 
strategic advantages as they see it in terms of dispersing the 
home-porting arrangements for carriers on the East Coast. And 
then it would become an issue of coming to a judgment on what 
is the value of that strategic dispersion as the Navy presents 
it versus the potential value of spending that money in other 
ways.
    And that is the question for policymakers.
    Mr. Taylor. Chair thanks the gentleman from Virginia.
    We now recognize the gentleman from Connecticut, Mr. 
Courtney, for five minutes.
    Mr. Courtney. Thank you, Mr. Chairman, and as you said in 
your opening remarks, and obviously, we have got a budget that 
is coming out in May, which the content of this hearing is 
going to be very helpful. In addition to that, we are also 
looking at another quadrennial defense review that is beginning 
the process right now.
    In the last review, the number of attack submarines that 
was pegged was 48, and I just was wondering whether the 
witnesses had any opinions about whether or not that number 
should change, stay the same? Mr. O'Rourke's report mentioned 
that there is some discussion about reducing the fleet size 
down to 40.
    So obviously, this issue is going to be swirling around out 
there, and maybe starting with you, Mr. Thompson, and going 
across.
    Dr. Thompson. Congressman, I believe that on that on the 
glide path we are on, we are actually headed for not more than 
about 41 circa 2028. Electric Boat built those Los Angeles 
class attack subs so efficiently back in the 1970s and 1980s 
that they all retire very quickly going into the next two 
decades, and that has the consequence of reducing our attack 
sub numbers well below 48.
    You know, we skipped six years in the 1990s with no 
construction. I guess that was the switch over from Seawolf to 
what we now call the Virginia class, and then we delayed 
ramping up the construction of the Virginia class. It is not 
until 2011 that we get to two a year. I am not sure we are ever 
going to build them at three a year.
    So, although the lowest number I have heard the Joint Staff 
say was prudent was 48, we are actually headed for a 
considerably lower number. At the very least, we have to 
produce two a year, but anybody who suggests doing anything 
less than that is really putting our intelligence gathering 
capabilities and our undersea warfare capabilities at risk.
    Admiral Houley. When I retired from active duty, the number 
was 75, plus or minus a couple. That is still my favorite 
number. So you can take that one and put it wherever it 
deserves to be. I said in my opening remarks that to me the 
most important thing is what has already been accomplished, and 
that is the multi-year capability.
    We all know those submarines are terribly expensive. They 
too take a lot of time to build. And with that multi-year 
procurement and a level of two a year, you never get to a 
number a submariner likes or even a strategic thinker likes. 
But all of these things have to be considered in the same light 
that you all look at them.
    There is a whole Navy here, not just a submarine Navy. You 
are all more than well aware of the issues involved with 
procurement if the numbers drop too low. Not only do you start 
paying way too much money for things, but in some cases, you 
have problems getting them at all. And given that all of our 
nuclear shipbuilding is wrapped up in two classes of ships, the 
amount of business that we do is pretty limited.
    So I think that it is good to have a number, and it is good 
for these studies to continue and they never stop. They are 
done by friends; they are done by foes depending on what your 
definition of either is. And they do illuminate the issues and 
bring them up to date. But I think we kind of are where we are.
    And if we have the ability to sustain two a year, then we 
can argue about a lot of other things. We have got a new class 
of ships we are going to have to eventually build. That is 
going to be another big challenge for you all as well as for 
the Navy and strategic thinkers. It is just going to get 
tougher and tougher.
    And, to me, I like where we are not because it gets us to 
the right number of submarines, but it provides a line of 
defense for the moment, at least, which I am sure will be 
reviewed.
    Dr. Barnett. I am generally comfortable with the glide path 
that we are currently on. I don't have a real problem with us 
going from 48 to the low 40s. Two things I like to cite, you 
know, historically, the utility of submarines in my mind has 
decreased fairly dramatically over the last six decades.
    There hasn't been a major submarine battle since the Second 
World War. There has been five torpedoes fired in two 
incidences in the last six plus decades. Yes, we are seeing 
certain countries in an anti-access strategy reach for cheap 
asymmetrical capabilities in terms of diesel submarines. You 
know, if we are really worried about that, my answer is not to 
come up with a highly technological answer for that.
    My answer is simply to symmetricize the situation. I mean, 
for us to get in the business of building simple, cheap diesel 
submarines and meeting that threat head-on if we really 
seriously consider that a big threat. And whenever I hear 
surveillance issues, underwater capabilities of submarines, I 
tend to think that is overvalued. I don't see that much utility 
in building submarines for surveillance reasons.
    Dr. Thompson. Could I comment on that? I think the problem 
the undersea warfare community has is that much of what it does 
is not in the public domain. And so we are left guessing about 
precisely how the submarines are being used. The fact of the 
matter is that most of the mission days are spent on 
intelligence gathering.
    And that doesn't necessarily mean looking for submarines. 
It also means doing signals intelligence collection for long 
periods of time, covertly, off the coast of places like Syria, 
China, Iran and so on. Now, the Navy's never going to talk 
about that in public. But to suggest that the reason why we can 
safely go to the low 40s is because we don't use a lot of 
torpedoes anymore is kind of missing the point about why we buy 
submarines in the first place.
    Dr. Barnett. Again, my follow would be that there is a 
tendency to sell the secrecy argument and the value of what we 
get from that intelligence gathering. I think the question has 
to be asked whether we need $2 billion undersea platforms to 
gather that intelligence. Or whether there are other means that 
are equally applicable that give us a large array of 
capabilities over the long term.
    Dr. Thompson. I guess the next step is to cut the number of 
imagery satellites and signals intelligence satellites too 
since those are secret also.
    Dr. Barnett. No, no. It is a question of bouncing between 
those two. I would much rather see my money go into that kind 
of capability than----
    Mr. Taylor. Gentlemen----
    Dr. Barnett [continuing]. Buying submarines.
    Mr. Taylor. We gave the chairman of Readiness, out of 
respect, a bit more than five minutes, but you are fairly new 
here, we can't do that.
    The gentleman from California, Mr. Hunter. Five minutes.
    Mr. Hunter. Thank you, Mr. Chairman. This has been a 
fantastic panel. First of all, I would like to comment on Dr. 
Barnett's comments on the Navy's risk and relevance. I think 
when you see boxers going at it, each boxer stays out of 
distance, out of reach until he wants to strike, and then he 
moves in.
    I think in order to stay relevant, I am Marines, this is 
easy to say, but you have to be willing to close with the enemy 
and take them on. That is why I think the LCSs are important, 
and being able to move them.
    What I would like to hear your opinion on is on our over-
the-horizon capability with the Marine Corps and our ability to 
breach a country, basically, breach a country, build a 
beachhead and invade if we had to with something such as the 
expeditionary fighting vehicle. Do you see a need for that in 
the future?
    Dr. Barnett. In general, I don't see a rising requirement 
for forcible entry amphibious from the sea.
    Mr. Hunter. You didn't call me general; you are saying in 
general?
    Dr. Barnett. I said in general.
    Mr. Hunter. Oh, good. I thought you--I am a captain. Okay, 
good.
    Dr. Barnett. Well, my role is to call everybody general or 
admiral, because it usually flatters. But I don't see a rising 
requirement there. You know, in general, I think most of the 
places we are going to access are going to be permissive in 
terms of entry. And most of our problems are going to be 
encountered once we get there.
    So I am more interested in fortifying the Marines on an 
individual basis than I am seeking the technological solutions 
for how they enter in any situation.
    Dr. Thompson. You know, I remember in August of 2001, a 
reporter asked me whether we would be in a land war in Asia any 
time in the next 10 years, and I said, ``No, we are not going 
to be in a land war in Asia any time in the next 10 years.'' 
And sure enough, I was right. We were in two land wars in Asia 
within three years.
    It is not possible to know the future. And, you know, you 
get into problems like DDG-1000 or into questions about LCS if 
you key your capability too closely to the threat that is 
preoccupying you at a particular time. You really have to build 
multi-mission capabilities that are flexible, versatile because 
the threats change, especially now.
    Given that, the notion that the Marine Corps is going to 
spend the next 10 or 20 or 30 years trying to get ashore in 
vehicles like the Amphibious Assault Vehicle (AAV) is really a 
pretty tenuous war-fighting concept. Now, I understand that the 
view today is that we are going to use rotorcraft for the most 
part to go over the beach, but you still need a vehicle that 
can get ashore.
    And while the cost of the expeditionary fighting vehicle 
has gone up considerably, the program is actually doing quite 
well since it was restructured. I always ask people when they 
say, ``Should we kill it,'' is ``Well, what is your 
alternative?'' I don't see any alternative.
    Mr. O'Rourke. I think it is also worth noting that 
independent of the idea of doing forcible entry, amphibious 
ships are increasingly recognized as having value and 
performing many of the other kinds of operations that I 
mentioned in my testimony earlier including humanitarian 
assistance and disaster relief, engagement and partnership 
building and maritime security operations.
    So, even if you were to discount the idea of doing large 
landings ashore in a nonbenign setting, you might still wind up 
deciding that you need a significant number of amphibious ships 
for these other kinds of missions.
    Admiral Houley. I strongly agree with Mr. O'Rourke's 
comment there. And while as a submariner my testimony about 
vehicles is worthless, the one thing that ties most of what we 
have talked about today together is the fact that no matter 
what you believe in terms of the ordering of threats in the 
future, the fact that they will be all over the globe is not up 
for debate.
    And the fact that whether you are looking at aircraft 
carriers or whether you are looking at amphibious ready groups 
or whether you are looking at the helicopters that were briefly 
mentioned here, all of those things are part of what the Navy 
does.
    And our case for ourselves may change in terms of the 
importance of this, that, or the other thing, but the 
importance of the Marine capability to be moved to deal with 
whatever it is that we are trying to deal with, that case will 
not be subject to much criticism or question.
    So it is perfectly worth having discussions about vehicles, 
which unfortunately, I can't help with. But I am really 
enamored with the fact that the cases for expeditionary forces 
seem to be increasing rapidly rather than decreasing, even 
though the scenarios may be something to have a debate about.
    Dr. Barnett. I also agree with the notion that amphibious 
ships are highly useful for that kind of lower end, less 
forcible entry kind of situations, which I think will 
proliferate, and I see other powers reaching for that kind of 
tool kit as well. So I see them responding to the environment, 
and I see us responding to the environment by maintaining 
certain numbers in that regard.
    I don't advocate worrying too much about the forcible 
aspect of it, but I do see a lot----
    Mr. Hunter. Thank you, doctor.
    Thank you, Mr. Chairman.
    Mr. Taylor. The chair thanks the gentleman.
    We have been called to the floor for what is probably going 
to be seven votes. Another committee has scheduled this room 
starting shortly after 12. So we are going to recognize Ms. 
Pingree for the last set of questions.
    I would ask that our panel, and again, I very much 
appreciate you being here. I hope you appreciate for a change 
that this was actually a hearing. You all did most of the 
talking. And I think that was a welcome change from what often 
happens in this room.
    So we are going to recognize Ms. Pingree. We are going to 
encourage each of the members who did not get a chance to 
submit questions for the record.
    The chair now recognizes Ms. Pingree for five minutes.
    Ms. Pingree. Thank you, Mr. Chair. And I appreciate the 
fact that you don't have a lot of time to answer our questions, 
and my colleagues want to get to a vote. And so I will try to 
be brief here on something that clearly is complicated issue.
    As you can see, I am down here in the row with the 
freshman. And so I am a newly elected member from a district 
where shipbuilding is of critical importance, and we have had a 
longstanding relationship with the decisions that are made by 
the Navy.
    So my two questions, which are kind of broad, and you may 
say that you want to get back to me or talk to me at a future 
moment. One, I think, is for Mr. O'Rourke. You know, it would 
be very helpful to me, and perhaps this is an entire separate 
hearing, but to really understand factually what the 
differences are between the DDG-1000 and the 51.
    You know, that comes up even though that is not what the 
topic of the hearing is today, many of you have made 
recommendations around this. This is clearly a change here in 
the direction that the Navy is taking.
    And I think I need a better understanding of whether this 
is all about the budget and the concerns that are being raised 
around that or how that will substantially change what we are 
going about doing.
    Maybe kind of blended together here, and again, I 
understand these are broad, complex topics. But for Rear 
Admiral Houley, and you discussed this a little bit, but, you 
know, it is very hard to understand as a newcomer to this 
process why the major shifts happen in the Navy strategy around 
their ability to sort of plan for the future of what is best to 
build for the Navy, how we could have come to this point of 
making such a dramatic shift after going down one path.
    And again, I understand that we are all dealing with budget 
constraints that we have to be honest in our assessment of what 
it really costs in the future, but why does the Navy seem to be 
incapable of planning for future budgeting and unable to 
understand or at least face what future costs are going to be 
when they are making these major decisions about what we are 
going to be building?
    I know a couple of you mentioned at some point, the 
importance of preserving an industrial base, and for me, 
looking at this, not just someone who is deeply concerned about 
the workers in our district but also someone who wants to make 
sure that, in the future, we have good shipbuilders who are 
ready to go and good yards with the capacity to build them.
    It seems increasingly difficult to make these kinds of 
changes, and you know, why does that happen?
    Admiral Houley. Let me be mercifully brief, mercifully 
simplistic and, therefore, give you a really lousy but very 
straightforward answer. There is an analogy here between the 
Seawolf submarine and the submarines that we are now building, 
the Virginia class.
    The overall criticism was that we were building in Seawolf, 
a ship that was overly complex, overly capable and, therefore, 
by definition, overly expensive for the threat as projected by 
anybody.
    Everybody thinks DDG-1000 would be a marvelous ship and a 
great credit to the Navy, but we would only be able to build a 
few of them. We would have to go through a nightmare of lessons 
to be learned before we ever got to that point, and in the end, 
the number of ships that we would add to the Navy would be 
continually smaller than the number we are taking out in old 
age.
    We can't afford it. Now, I am not going to even touch the 
comment about why is the Navy incapable, because I don't agree 
with the premise of the question. These things are not simple, 
and sometimes, naval leadership has to do what the country or 
the Congress expects them to do. Sometimes we even have to do 
things we don't agree with. But that is part of what we do for 
a living.
    I am not trying to suggest here that I think the CNO has 
been told, ``You can't ask for the DDG-1000.'' I don't think 
that is the case, but I think that it is his measured wisdom 
that that is not in the best interest of the Navy given the 
overall shipbuilding situation, which we have tried to address 
here.
    Now, that is not a complete answer to your question, which 
as you said, it is a 45-day question, and----
    Mr. Taylor. Ms. Pingree? We are down to two minutes before 
we vote. So----
    Mr. O'Rourke. Congresswoman, just very quickly----
    Mr. Taylor. Mr. O'Rourke. I have really got to gavel you, 
but if you want to carry on this conversation privately, I 
would appreciate that.
    Thank you very much, Ms. Pingree.
    [Whereupon, at 11:35 a.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 26, 2009

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 26, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T4775.001
    
    [GRAPHIC] [TIFF OMITTED] T4775.002
    
    [GRAPHIC] [TIFF OMITTED] T4775.066
    
    [GRAPHIC] [TIFF OMITTED] T4775.067
    
    [GRAPHIC] [TIFF OMITTED] T4775.003
    
    [GRAPHIC] [TIFF OMITTED] T4775.004
    
    [GRAPHIC] [TIFF OMITTED] T4775.005
    
    [GRAPHIC] [TIFF OMITTED] T4775.006
    
    [GRAPHIC] [TIFF OMITTED] T4775.007
    
    [GRAPHIC] [TIFF OMITTED] T4775.008
    
    [GRAPHIC] [TIFF OMITTED] T4775.009
    
    [GRAPHIC] [TIFF OMITTED] T4775.010
    
    [GRAPHIC] [TIFF OMITTED] T4775.011
    
    [GRAPHIC] [TIFF OMITTED] T4775.012
    
    [GRAPHIC] [TIFF OMITTED] T4775.013
    
    [GRAPHIC] [TIFF OMITTED] T4775.014
    
    [GRAPHIC] [TIFF OMITTED] T4775.015
    
    [GRAPHIC] [TIFF OMITTED] T4775.016
    
    [GRAPHIC] [TIFF OMITTED] T4775.017
    
    [GRAPHIC] [TIFF OMITTED] T4775.018
    
    [GRAPHIC] [TIFF OMITTED] T4775.019
    
    [GRAPHIC] [TIFF OMITTED] T4775.020
    
    [GRAPHIC] [TIFF OMITTED] T4775.021
    
    [GRAPHIC] [TIFF OMITTED] T4775.022
    
    [GRAPHIC] [TIFF OMITTED] T4775.023
    
    [GRAPHIC] [TIFF OMITTED] T4775.024
    
    [GRAPHIC] [TIFF OMITTED] T4775.025
    
    [GRAPHIC] [TIFF OMITTED] T4775.026
    
    [GRAPHIC] [TIFF OMITTED] T4775.027
    
    [GRAPHIC] [TIFF OMITTED] T4775.028
    
    [GRAPHIC] [TIFF OMITTED] T4775.029
    
    [GRAPHIC] [TIFF OMITTED] T4775.030
    
    [GRAPHIC] [TIFF OMITTED] T4775.031
    
    [GRAPHIC] [TIFF OMITTED] T4775.032
    
    [GRAPHIC] [TIFF OMITTED] T4775.033
    
    [GRAPHIC] [TIFF OMITTED] T4775.034
    
    [GRAPHIC] [TIFF OMITTED] T4775.035
    
    [GRAPHIC] [TIFF OMITTED] T4775.036
    
    [GRAPHIC] [TIFF OMITTED] T4775.037
    
    [GRAPHIC] [TIFF OMITTED] T4775.038
    
    [GRAPHIC] [TIFF OMITTED] T4775.039
    
    [GRAPHIC] [TIFF OMITTED] T4775.040
    
    [GRAPHIC] [TIFF OMITTED] T4775.041
    
    [GRAPHIC] [TIFF OMITTED] T4775.042
    
    [GRAPHIC] [TIFF OMITTED] T4775.043
    
    [GRAPHIC] [TIFF OMITTED] T4775.044
    
    [GRAPHIC] [TIFF OMITTED] T4775.045
    
    [GRAPHIC] [TIFF OMITTED] T4775.046
    
    [GRAPHIC] [TIFF OMITTED] T4775.047
    
    [GRAPHIC] [TIFF OMITTED] T4775.048
    
    [GRAPHIC] [TIFF OMITTED] T4775.049
    
    [GRAPHIC] [TIFF OMITTED] T4775.050
    
    [GRAPHIC] [TIFF OMITTED] T4775.051
    
    [GRAPHIC] [TIFF OMITTED] T4775.052
    
    [GRAPHIC] [TIFF OMITTED] T4775.053
    
    [GRAPHIC] [TIFF OMITTED] T4775.054
    
    [GRAPHIC] [TIFF OMITTED] T4775.055
    
    [GRAPHIC] [TIFF OMITTED] T4775.056
    
    [GRAPHIC] [TIFF OMITTED] T4775.057
    
    [GRAPHIC] [TIFF OMITTED] T4775.058
    
    [GRAPHIC] [TIFF OMITTED] T4775.059
    
    [GRAPHIC] [TIFF OMITTED] T4775.060
    
    [GRAPHIC] [TIFF OMITTED] T4775.061
    
    [GRAPHIC] [TIFF OMITTED] T4775.062
    
    [GRAPHIC] [TIFF OMITTED] T4775.063
    
    [GRAPHIC] [TIFF OMITTED] T4775.064
    
    [GRAPHIC] [TIFF OMITTED] T4775.065
    
                                  <all>

</pre></body></html>
